<html>
<title> - ANOTHER SURGE OF ILLEGAL IMMIGRANTS ALONG THE SOUTHWEST BORDER: IS THIS THE OBAMA ADMINISTRATION'S NEW NORMAL?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  ANOTHER SURGE OF ILLEGAL IMMIGRANTS
                      ALONG THE SOUTHWEST BORDER:
                   IS THIS THE OBAMA ADMINISTRATION'S
                              NEW NORMAL?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2016

                               __________

                           Serial No. 114-60

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                              ____________
                              
                              
                       U.S. GOVERNMENT PUBLISHING OFFICE
98-487 PDF                    WASHINGTON : 2016                       
                      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  
                       
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                     Gary Merson, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                            FEBRUARY 4, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     5
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     7

                               WITNESSES

Brandon Judd, President, American Federation of Government 
  Employees (AFGE), National Border Patrol Council
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Steven C. McCraw, Director, Texas Department of Public Safety
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
Wendy Young, President, Kids in Need of Defense (KIND)
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    77

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from Brandon Judd, 
  President, American Federation of Government Employees.........    80
Response to Questions for the Record from Steven C. McCraw, 
  Director, Texas Department of Public Safety....................    82
Response to Questions for the Record from Jessica M. Vaughan, 
  Director of Policy Studies, Center for Immigration Studies86<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California, and Ranking Member, 
    Subcommittee on Immigration and Border Security. This material is 
    available at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104402.

 
ANOTHER SURGE OF ILLEGAL IMMIGRANTS ALONG THE SOUTHWEST BORDER: IS THIS 
                 THE OBAMA ADMINISTRATION'S NEW NORMAL?

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2016

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 9 a.m., in room 
2141, Rayburn House Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Goodlatte, Gowdy, Labrador, Smith, 
Conyers, Lofgren, and Gutierrez.
    Staff Present: (Majority) George Fishman, Chief Counsel; 
Tracy Short, Counsel; Tanner Black, Clerk; (Minority) Gary 
Merson, Chief Counsel, and Maunica Sthanki, Counsel.
    Mr. Gowdy. Good morning, this is the Subcommittee on 
Immigration and Border Security. This is a hearing on another 
surge of illegal immigrants along the southwest border. Today's 
date, Wednesday, February 4, 2016. The Subcommittee will come 
to order without objection. The Chair is authorized to declare 
recesses of the Committee at any time. We welcome everyone to 
today's hearing.
    I would also just let everyone know kind of up front that 
the witnesses deserve to be heard and the Members deserve to 
ask their questions, and I do not anticipate any outburst or 
disorderly conduct, but my patience with that is zero. So this 
will be the one and only warning in that regard.
    I will recognize myself for an opening. I will then 
recognize the Ranking Member. I want to let all of our 
witnesses know how grateful I am that you are here. I will need 
to leave to go next door for another hearing, but you will be 
in much more capable hands when I leave than you are currently, 
so it is no reflection on any of the witnesses. I will come 
back when I am able to do so.
    Once again, we are witnessing a crisis at our southwest 
border as thousands of unaccompanied minors and adults are 
coming to the United States.
    In 2014 we witnessed a massive wave of illegal immigration 
when over 68,000 unaccompanied minors and an equal number of 
family units crossed our southwest border. In the past few 
months, the number of unaccompanied alien minors unlawfully 
entering the U.S. soared to over 17,000, and the number of 
family units increased to 21,000. If these trends continue, it 
is projected there will be a 30 percent increase in the record 
high numbers we witnessed in 2014. And those numbers in 2014 
alone were alarming and concerning.
    Secretary Johnson testified before the Appropriations 
Committee the message we are sending to people crossing the 
border is you will be sent home. Either that message has not 
been communicated, or it has not been received because the 
border crossings, the unlawful border crossings, continue.
    This Administration claims these aliens are flooding our 
border to flee violence and poverty in their native countries 
and our government cannot do anything to stop it. However, 
based on their own intelligence reports, this Administration's 
policy of non-enforcement is, in fact, sparking the surge in 
the first instance.
    Based on a report, nearly 60 percent said it was the 
Administration's immigration policies that influenced their 
decision to come to the United States. These are the same 
reasons provided by aliens who entered in 2014, and the vast 
majority of these aliens remain in the country today. In other 
words, no adequate steps have been taken to halt the surge or 
discourage aliens from attempting to enter the United States. 
We must at some point send a clear message to potential 
unlawful immigrants that discourage entry into our country. 
That would be in the best interests, frankly, of everyone.
    Border patrol agents are currently prevented from 
initiating removal proceedings against aliens who are 
unlawfully present simply because there is not enough detention 
space to hold them. Lack of space is especially problematic 
when entire family units cross the border unlawfully. Ninety-
eight percent of aliens in removal proceedings are not detained 
nor are they removed. Additionally, in order to place aliens in 
removal proceedings, agents are required to observe aliens 
physically crossing the border. Oftentimes, upon being 
approached by a border agent, aliens will claim to have been in 
the United States since January of 2014 despite the high 
improbability of such a claim.
    This not only threatens our national security and public 
safety, it also endangers those unaccompanied minors risking 
their lives to travel to the United States. In hopes their 
children will arrive safely from Central America, current 
unlawful aliens residing in the United States are paying 
thousands of dollars to criminal organizations to transport 
their children across the border. These human smugglers have 
histories of alliance and allegiance with Mexican drug cartels 
and gangs. These children's lives are at risk during their 
journey to the United States, but it does not stop there. They 
also face dangerous situations upon arrival to the United 
States.
    A recent Senate report found the Administration failed to 
properly conduct background checks on all persons with whom 
minors are placed, resulting in children being placed in the 
hands of abusive and exploitive sponsors. One account even 
found these children working as slaves on a farm.
    In the words of the U.S. Customs and Border Patrol 
Commissioner, we could very well be seeing the new normal. And 
let me add this new normal is not acceptable at any level. A 
sovereign country is entitled to control who gains access to 
this country, how that access is gained, and in what capacity 
that access is gained and the duration of such access.
    Legal immigration is a privilege this country conveys upon 
the terms and conditions that it sets. Illegal immigration is 
just that. It is illegal, and the motivations for such unlawful 
acts do not mitigate the criminality or diminish our 
responsibility to take care that the laws be faithfully 
executed. Actions have consequences. Actions send messages. 
Inaction has consequences as well, and the message seems to be 
if you can get here, no matter the method, you can stay. And 
that is wrong for everyone involved and most significantly the 
fellow citizens we take an oath to serve. Certain border states 
refuse to wait for action by an unwilling Administration. The 
Texas legislature, for example, has appropriated $800 million 
over 2 years to combat the proliferation of smuggling and 
trafficking of aliens and drugs through Texas' southwest 
border.
    So I will look forward to hearing from our witnesses from 
Texas to expand on that state's efforts to handle the surge. 
However, we should not leave the states to employ their own 
regulations. Securing the border and ensuring the safety of our 
citizens is a Federal responsibility. So I thank the witnesses 
for their appearances today. I look forward to hearing from 
each one of you, and with that, I would recognize the 
gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman. We are in the midst 
of a global refugee crisis, including in our own hemisphere. 
Women and children from the Central American Northern Triangle 
countries of El Salvador, Honduras, and Guatemala are coming to 
our borders seeking safe haven. And contrary to the Ranking 
Member's description of this as illegal immigration, in fact, 
our immigration laws provide for the possibility of asylum if 
you are fleeing violence and seeking safe haven in the United 
States.
    Violence in these countries is paralyzing communities, 
preventing children from attending school, adults from earning 
a living, and even making public transportation a life-
threatening endeavor. According to the Washington Office on 
Latin America, El Salvador's 2015 murder rate reached a level 
of violence not seen since the end of the country's civil war: 
6,650 homicides in 2015 in a country of 6.3 million people, was 
approximately a 70 percent increase over 2014, making it the 
most violent country in the hemisphere. El Salvador has the 
second highest murder rate in the world, just behind Syria.
    It is literally an epidemic by the World Health 
Organization's definition. And Honduras and Guatemala are not 
far behind. Honduras's murder rate is in the top five in the 
world, 10 times the world's average, and Guatemala's is in the 
top 20.
    A 2015 report by the United Nations High Commission for 
Refugees, UNHCR, found that women in particular face a 
startling degree of violence in the Northern Triangle including 
rape, assault, extortion, and threats by armed criminal groups. 
One study estimated that over 80 individuals who came to the 
United States and were returned to El Salvador, Guatemala, and 
Honduras, have been murdered since January of last year. 
Violence pervades every facet of life in the vast areas of 
these countries.
    According to data shared by the Department of Homeland 
Security, 85 percent of Central American families who arrived 
since summer of 2014 and have been detained, establish 
threshold eligibility for refugee protection. The continued 
surge of Central American mothers and children at our southwest 
border is a humanitarian refugee issue, and not an illegal 
immigration phenomenon.
    Some would have us believe that desperate women and 
children arriving and giving themselves up to Border Patrol 
officers shows that we are in a porous or uncontrolled border 
situation. But what is actually uncontrolled is the violence in 
these countries, not our borders. Very few, if any, of these 
women and children are eluding the Border Patrol in making 
their way into the interior of our country. Rather, they are 
immediately apprehended at our border, detained, and removal 
proceedings are initiated.
    Yet our strategy of family detention, Spanish language 
communication campaigns in Central America urging people not to 
come to the United States, and financial assistance to Mexico 
to deter arrest and return those fleeing violence, has proven 
to be ineffective, and I am afraid that my colleagues want more 
of what has not worked: more deterrence, more border 
enforcement, more detention, more deportation. But until the 
situation in Central America is successfully addressed, 
desperate Central American mothers and children are going to 
continue to flee to the United States and seek protection. The 
refugee crisis in our hemisphere will only be resolved when the 
United States joins with other Nations in the Western 
Hemisphere in a comprehensive regional solution.
    This should include refugee screening and resettlement, use 
of safe havens and appropriate third countries, not only the 
United States, a temporary protected status for those 
individuals in the U.S., the use of priority refugee 
processing, and other humanitarian remedies. It is critical 
that this approach include cooperation with other countries in 
the Western Hemisphere.
    The violence in the Northern Triangle of Central American 
and the resulting refugee flow affects our entire region, and 
the United States' solution should include a regional refugee 
resettlement program, as well as increased capacity building of 
asylum systems in neighboring countries, not just the U.S.
    For these reasons, I am pleased with the Administration's 
recently announced recognition that many Central American 
qualify as refugees under international law, and that we will 
be partnering with UNHCR to resettle refugees from El Salvador, 
Honduras, and Guatemala. I am cautiously optimistic that the 
use of third country temporary processing centers will provide 
protection for those who are unable to remain in their home 
country during the refugee processing period.
    These are important and constructive steps toward a 
comprehensive regional refugee solution to address violence in 
the Central American region. However, this new Central American 
refugee resettlement program must not be used as a 
justification to deny or deter refugees from seeking asylum 
protection under our immigration laws here in the U.S. The U.S. 
has continued to be a beacon of safety and refuge for those 
seeking protection from persecution. This new Central American 
refugee program should be an expansion of our efforts to 
provide refuge, not a substitute for existing asylum processes.
    Women and children fleeing violence are a vulnerable 
population, and they should be treated with heightened 
sensitivity, awareness, and comprehensive access to counsel. We 
have a moral, as well as domestic and international legal 
obligation, to ensure that no mother or child is sent back to a 
country where they face torture or death. Every effort must be 
made to ensure that this vulnerable population has access to 
counsel and full due process protections prior to deportation.
    I think it is well past time to start working toward a 
solution that provides a practical and humane response to the 
mothers and children from Central America fleeing for their 
lives and seeking safety and protection.
    I would just close by noting that so many of the Members of 
this Committee have declared themselves to be pro-life, and I 
think this is an instance where those representations about 
being for life should be brought to the forefront. If we care 
about babies, we should care about 10-year-olds who are facing 
death if returned home, and I hope that this hearing will help 
enlighten us as to that issue, and I yield back, Mr. Chairman, 
the balance of my time.
    Mr. Gowdy. The gentlelady yields back. The Chair will now 
recognize the gentleman from Virginia. The Chairman of the full 
Committee, Mr. Goodlatte.
    Chairman Goodlatte. Thank you, Mr. Chairman. Record numbers 
of unaccompanied alien minors and adults traveling with minors 
are again surging across our southern border, overwhelming 
Federal and state resources, creating a border security 
nightmare, and ensuring record profits for the criminal 
organizations that control the drug and human smuggling and 
trafficking business along the border. More than 152,000 
unaccompanied minors and families are projected to illegally 
cross our southwest border this year. Some estimates project 
the number to top 177,000, the population of Fort Lauderdale, 
Florida. This would surpass the previous high mark in 2014 by 
nearly 30 percent.
    These minors, more than two-thirds of whom are between the 
ages of 15 to 17, travel thousands of miles from Central 
America through dangerous desert areas controlled by Mexican 
drug cartels, and arrive at our southern border with tried and 
tested instructions from the smugglers leading them. ``Find the 
first Border Patrol agent and claim asylum.'' This narrative is 
repeated thousands of times over, and there is little doubt 
that with every successful entry and reunification, it 
encourages thousands more to illegally enter and further 
degrades our border security.
    We saw a similar surge of mass illegal immigration by 
unaccompanied minors and adults from Central America in 2014. 
Tragically, many were killed, assaulted, kidnapped, and 
extorted during their journey by the criminal elements that 
operate with impunity south of our border. This surge will 
undoubtedly produce similar victims.
    Despite these tragic consequences of non-enforcement, there 
are no lessons learned by this Administration. A leaked DHS 
intelligence report shows the Obama administration's lax 
immigration policies are fueling this current surge. During 
July through September 2015, customs and border protections 
agents interviewed 345 family units apprehended at the border. 
Nearly 70 percent said they had heard that if they came to the 
United States, they would be released, or receive some sort of 
immigration relief, such as asylum. Additionally, nearly 60 
percent said it was the U.S. immigration policies that 
influenced their decision to come here. The unresponsiveness by 
President Obama to this clearly foreseeable crisis is truly 
shocking.
    His instructions to Federal law enforcement agencies? Stand 
down. In some Border Patrol sectors, agents report that they 
are not allowed to initiate removal proceedings against 
criminal aliens who do not have a felony conviction. Aliens 
convicted of misdemeanors, and those who have pending felony 
charges, get a free pass. Agents also report that they are not 
authorized to initiate removal proceedings against adult aliens 
after apprehension at the border if no detention space is 
available. This is outrageous. Such aliens are supposedly the 
Obama administration's number one priority for removal. And 
such a policy is a beacon call for foreign nationals to cross 
our border undetected, including those who would do us harm.
    There is no doubt that terrorists from ISIS-controlled 
countries are taking note of the lack of border enforcement. 
They have publicly announced they will infiltrate this country 
posing as refugees. Rather than taking even minimal steps to 
stem the flood of illegal immigration by simply allowing 
Federal and state law enforcement agencies to do what they do 
best, enforce the law, the Administration sent the commissioner 
of customs and border protection to the southwest border to 
survey the calamity.
    His response? ``We could very well be seeing the new 
normal.'' Americans do not want our government to throw up its 
hands and capitulate to the masses of foreign nationals 
illegally surging across our borders, as though it is 
inevitable. They want us to address the problem head on and 
solve it. It is not complicated. The President simply must have 
the will to secure our border.
    But the grave consequences of the President's failed 
immigration policies extend beyond the debacle at the southwest 
border. They continue into the homeland. The custody and care 
of unaccompanied minors is entrusted to the Department of 
Health and Human Services, which places minors in the custody 
of qualified sponsors. Troubling reports indicated that HHS 
failed this most basic responsibility to place minors in a safe 
and secure environment. It did not properly screen prospective 
sponsors in several cases, resulting in minors being placed in 
the hands of human traffickers who exploited, threatened, and 
forced the minors to work.
    More concerning is the fact that HHS systematically failed 
to conduct adequate background checks on the household members. 
And even if a background check revealed a felony conviction for 
a sponsor, it would not preclude the placement of the minor.
    No crime is a per se bar to placement. This is deplorable 
and unacceptable. These failures highlight the irony of the 
Administration's misguided immigration policies. They encourage 
waves of illegal immigration by Central American minors who are 
victimized by criminal organizations along the way, only to 
arrive in the United States and suffer further harm because of 
the failure of this Administration to ensure their proper care.
    I look forward to hearing from the witnesses today on these 
important issues, and I thank them for appearing before the 
Subcommittee. Mr. Chairman, I yield back.
    Mr. Gowdy. The Chairman yields back. The Chair will now 
recognize the gentleman from Michigan, the Ranking Member of 
the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. And top of the 
morning to all of my colleagues. This morning, we are here to 
discuss the plight of thousands of refugees fleeing violence 
and persecution in Central America, the vast majority of whom 
are mothers and children. These desperate individuals are 
arriving at our southern border seeking refuge and humanitarian 
assistance in an effort to escape gang violence, violence 
toward children, domestic violence, and widespread political 
corruption. Unless we take immediate action to address these 
root causes of humanitarian crisis, refugee mothers and 
children from Central America will continue to suffer and seek 
refuge on our shores.
    Among the measures we should undertake are the following: 
to begin with, we must first recognize that this crisis is 
humanitarian in nature, and not just a border security problem. 
It is a crisis that demands a regional response.
    Secondly, this response should ensure that Central American 
mothers and children are able to live free from an endless 
cycle of violence and persecution. And third, we should partner 
with other Nations in the hemisphere to provide durable 
resettlement solutions.
    The new program just announced last month by the State 
Department, with the support of the United Nations High 
Commissioner for Refugees, is a very encouraging step. This 
program will provide resettlement options for families within 
Central America and in other countries in our hemisphere. 
Addressing the crisis in the region will help desperate mothers 
and children avoid the dangerous journey through Mexico to the 
United States as the principle means of escape.
    In addition, we must address the root causes of the 
humanitarian crisis. Resettlement solutions, whether in the 
United States or with the regional partners, are only a Band-
Aid to an ongoing crisis of violence here at Honduras, 
Guatemala, El Salvador, generally referred to as the Northern 
Triangle.
    Human rights organizations and Federal agencies agree that 
life, particularly for women and children in the Northern 
Triangle, is perilous. Murder rates in this region have the 
unwelcome distinction of being the highest in the world. But we 
should not lose hope. This crisis, while intractable, is not 
irreversible. We must assist the Northern Triangle in tackling 
the root causes of this violence, and help it create safe and 
economically-stable societies, such as through targeted foreign 
assistance and capacity building. Only then will the 
humanitarian crisis at our border truly subside.
    And finally, we must recognize that even a fully developed 
regional solution will not prevent all Central American refugee 
mothers and children from arriving at our southern border. We 
have a moral as well as legal obligation to provide asylum 
seekers the opportunity to apply for humanitarian protection. 
Mothers and children requesting protection in the United States 
are not engaging in an illegal act. Rather, they are following 
our well-established asylum laws.
    The legislative proposals that this Committee has 
considered this Congress are not the answer, because they would 
only result in mass deportation of vulnerable refugees. 
Deporting Central American refugee mothers and children to a 
region struggling with a major humanitarian crisis is, in my 
view, simply un-American. It reminds me of deportations to 
Haiti at the height of the post-earthquake cholera epidemic. 
Let's not repeat the mistakes of the past.
    And so, I thank the witnesses for their presence and 
participation here today. I thank the Chairman, and I yield 
back the balance of my time.
    Mr. Labrador [presiding]. Thank you. We have a very 
distinguished panel today. I will begin by swearing in our 
witnesses before introducing them, if you would please all 
rise.
    [Witnesses sworn.]
    Let the record show that the witnesses have answered in the 
affirmative. Thank you all, please be seated.
    First, I will introduce Mr. Brandon Judd. Mr. Judd is a 
Border Patrol agent and serves as president of the National 
Border Patrol Council, representing more than 16,500 Border 
Patrol line agents. He brings with him nearly 20 years of 
experience as Border Patrol agent, fluency in Spanish, and a 
thorough understanding of the policies effecting border 
security. Judd started his career as a field agent in 1997. 
Thanks for being here today.
    Next we have Mr. Steven McCraw. Mr. McCraw is the director 
of the Texas Department of Public Safety. He began his law 
enforcement career with DPS in 1977, as a trooper in the Texas 
Highway Patrol, and later as a DPS narcotics agent until 1983, 
when he became a special agent with the FBI. He served in 
Dallas, Pittsburgh, Los Angeles, Tucson, San Antonio, and 
Washington, D.C. In 2004 McCraw retired from the FBI to become 
the Texas Homeland Security director in the Office of the 
Governor, where he served for 5 years. Thanks for being here.
    Next is Ms. Jessica Vaughan. Ms. Vaughan currently serves 
as the director of policy studies for the Center for 
Immigration Studies. She has been with the center since 1992, 
where her expertise is in immigration policy, and operations 
topics such as visa programs, immigration benefits, and 
immigration law enforcement. In addition, Ms. Vaughan is an 
instructor for senior law enforcement officer training seminars 
at Northwestern University Center for Public Safety in 
Illinois. Ms. Vaughan has a master's degree from Georgetown 
University, and earned her bachelor's degree in international 
studies at Washington College in Maryland.
    And last but not least is Ms. Wendy Young. My Wendy Young 
is president of Kids in Need of Defense, KIND. She has spent 
more than two decades advocating for strong U.S. immigration 
and refugee laws, policies, and practices. Prior to joining 
KIND, Ms. Young worked for Senator Edward M. Kennedy as his 
chief counsel on immigration policy for the Senate Committee on 
the Judiciary. Ms. Young is a graduate of Williams College and 
holds JD and MA degrees from the American University.
    Each of the witness' written statements will be entered 
into the record in its entirety. I ask that each witness 
summarize his or her testimony in 5 minutes or less. To help 
you stay within that time, there is a timing light in front of 
you, as you all are, I think, are pretty much aware of it. And 
the light will switch from green to yellow, indicating that you 
have 1 minute to conclude your testimony. When the light turns 
red, it indicates that the witness' 5 minutes have expired. And 
I recognize all of you to give your testimony. Mr. Judd. Is his 
microphone one? Microphone? I am not sure your microphone's on.

 STATEMENT OF BRANDON JUDD, PRESIDENT, AMERICAN FEDERATION OF 
  GOVERNMENT EMPLOYEES (AFGE), NATIONAL BORDER PATROL COUNCIL

    Mr. Judd. Okay, sorry. As I was in church this past Sunday, 
my mind was preoccupied about this hearing and my testimony. I 
was thinking about what I could say to shed light on this 
current situation when one of the basic tenants of my 
religion's faith came to mind. We believe in being subject to 
kings, presidents, rulers, and magistrates and obeying, 
honoring, and sustaining the law.
    All religions that I am aware of believe in rules, tenants, 
and commandments. It is not different with the laws of the 
United States. When persons, whether citizens or not, follow 
the laws of this great Nation, peace and prosperity abound. 
However, when those laws are broken on a large-scale, chaos is 
the byproduct, and make no mistake, chaos defines parts of our 
southwest border today.
    Human and narcotic smugglers are constantly evolving to 
maintain or grow their profits. Unlike the Border Patrol, these 
criminal cartels operate without bureaucratic red tape. Cartels 
do not have to coordinate their efforts with the U.S. 
Attorney's Office, the Enforcement and Removal Office, Health 
and Human Services, or the Office of Civil Rights and Civil 
Liberties. Instead, the cartels see a problem and change their 
operations almost immediately.
    At the Border Patrol, it can take over a year to adapt. 
There are several examples of how cartels break policies that I 
have given in my written statement, but I am going to skip 
those.
    Today our largest trouble area is in Texas. Criminal 
cartels are once again proving adept at understanding and 
working around our policies. Late in the year of 2013 and 
throughout all of 2014, an unprecedented number of 
unaccompanied minors entered our country illegally through the 
Rio Grande Valley sector of operations. Instead of presenting 
themselves legally at ports of entry and asking for asylum, the 
unaccompanied minors were forced by the cartels to enter 
illegally at dangerous points along the border. In most cases, 
these minors were not trying to escape or evade apprehensions; 
they were simply crossing the border illegally and giving 
themselves up. The cartels understood that unaccompanied minors 
would force the Border Patrol to deploy agents to these 
crossing areas in order to take minors into custody, thereby 
creating large holes in the border. The creating of holes in 
the border, in Border Patrol operations, was only one benefit 
to the cartels by the unaccompanied minor surge. The other was 
the exploitation of our catch and release policy.
    As this surge became too much to handle, the Border Patrol 
and the enforcement and removal office began releasing nearly 
everyone we arrested. I believe this release allowed the 
cartels to increase their smuggling profits. With catch and 
release, the cartels could credibly say to potential customers 
that they would be able to remain in the United States without 
fear of deportation as long as they asked for asylum upon being 
apprehended. Although the problem began with unaccompanied 
minors, as word quickly spread of everyone being released, we 
started to see more crossings of complete family units, leading 
to a bigger problem than what we had in 2014. And once again, 
we are playing catch-up to a problem that in part we created 
through policy.
    All individuals that were released during this period of 
time were given an official document that ordered them to 
appear before an immigration judge at some future date. These 
orders are called Notices to Appear. The only problem, however, 
is that these official orders are usually ignored so much so 
that Border Patrol agents have dubbed them ``Notices to 
Disappear.''
    The latest data that I have seen show that approximately 40 
percent of the individuals being issues NTAs do not show up to 
their court proceedings. The willful failure to show up for 
court appearances by persons that were arrested and released by 
the Border Patrol has become an extreme embarrassment for the 
Department of Homeland Security. It has been so embarrassing 
that DHS and the U.S. Attorney's Office has come up with a new 
policy. Simply put the new policy makes mandatory the release 
without an NTA of any person arrested by the Border Patrol for 
being in the country illegally, as long as they do not have a 
previous felony arrest conviction, and as long as they claim to 
have been continuously in the United States since January of 
2014.
    The operative word in this policy is claim. The policy does 
not require the person to prove they have been here, which is 
the same burden placed on them during deportation proceedings. 
Instead, it simply requires them to claim to have been here 
since January of 2014. Not only do we release these individuals 
that by law are subject to removal proceedings, we do it 
without any means of tracking their whereabouts. In essence, we 
pulled these persons out of the shadows and into the light just 
to release them right back to those same shadows from whence 
they came.
    Immigration laws today appear to be merely suggestions. 
There are little to no consequences for breaking the laws, and 
that fact is well known in other countries. If government 
agencies like DHS or CBP are allowed to bypass Congress by 
legislating through policy, we might as well abolish our 
immigrations laws all together.
    I believe it is all our hope that people choose to govern 
themselves by honoring and sustaining the laws without 
compulsion. However, if they do not there, must be a 
consequence, and an enforcement mechanism that oversees 
compliance. In the absence of consequences and enforceable 
laws, innocent people are hurt, criminals are rewarded, chaos 
abounds, and cartels reap huge financial benefits. I look 
forward to answering any of your questions. Thank you.
    [The prepared statement of Mr. Judd follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      __________
                                      
    Mr. Labrador. Mr. Judd. Mr. McCraw?

           STATEMENT OF STEVEN C. McCRAW, DIRECTOR, 
               TEXAS DEPARTMENT OF PUBLIC SAFETY

    Mr. McCraw. Mr. Chairman, and honorable Members, thank you 
for the opportunity to be here today. My name is Steve McCraw. 
I am the executive director of the Department of Public Safety 
and colonel, and also the Homeland Security advisor for 
Governor Greg Abbott. Congressman Smith, it is great to see 
your friendly face from Texas, and I know you will be down 
there meeting with the Border Patrol secretary Manny Padilla 
and Raul Ortiz here later on, and I know they are looking 
forward to seeing you. I think you will get a great read from 
border control. They do a great job down there, the Rio Grande 
Valley Force.
    In an ever-changing threat environment, clearly we have 
seen, as it relates to crime, it is increasingly transitory. It 
is organized, even more violent, and also the discrete and 
networked. And at the same time, we have seen terrorism be more 
disaggregated. And that is very concerning. I know it is 
concerning for the governor. It is concerning for members of 
the Texas state legislature, because the result is consequences 
that we were not intending, and some things you are not even 
talking about today. And I would agree entirely that there are 
victims coming across.
    Those children, when they show up, they are victims, and as 
the agent just said next to me, when they get turned back over 
to the cartels, that they are victims. They are a commodity, 
and if you look at the sex traffic alone of children that were 
induced to come to Texas from Central America and Mexico and 
sit on those wire taps, work those cases, you realize the terms 
of the consequences that unsecure border is significant. And 
the governor and the state legislature have made it clear from 
the Department of Public Safety standpoint is that it, ``Hey, 
when it is unsecure, Texas is unsecure. The Nation's 
unsecure.''
    If you have a drug epidemic in the northeast, relates to 
heroin, you got a cartel and an unsecure border problem. If you 
have MS-13 in your neighborhood, they are plundering and 
raping, you have got a border problem as it relates to 
transnational crime. That is the bottom line in terms if you 
relate to it. It does not just stop at the border.
    And who would have thought that Texas border sheriffs and 
chiefs of police would have to invent new categories of crime? 
Stash house extortions, for example, which is in elaborate 
splashdowns. Pseudo cop stops, home invasions. You know, and 
the ending recruitment of our children in criminal element in 
the areas by plaza bosses to support their criminal operations 
on both sides of the border.
    So these things are happening, yet it is not talked about. 
But clearly, you know, Texas understands that impact. So much 
so that the governor, and it was mentioned before by the 
Chairman, the governor and the state legislature have dedicated 
$800 million directly to support border control operations. I 
say Border Patrol operations because they are truly our 
partners, and as they go, so does the security of our Nation. 
And from the Texas standpoint, you invest in Border Patrol, you 
invest in national security, you invest in public safety. And 
we are lined up with them. And we have been tasked since June 
the 23rd to conduct around-the-clock operations with them, with 
our local partners, to coordinate air, Marine, and ground 
operations, tactical operations. We put troopers into our 
Border Patrol units rights now, 30 units around the clock. We 
have tactical operations with Texas Ranger recon operations, a 
SWAT that marries up with BORTAC .
    There is a sense of urgency because we realize, even at the 
height in June 2014, the height of the unaccompanied children 
coming across, and as devastating that was and impactful, it 
clearly was a cartel tactic. They make money on both sides, and 
they overwhelm Border Patrol.
    Just 17 percent of the apprehensions were children in 
family units. That is it. Seventeen percent. And our directive 
is to focus on cartels, cartel operatives, transnational gangs 
like MS-13 that are now overwhelmed parts of Texas, like 
Houston. And also, the focus on the drugs, that they engage in. 
Heroin. Mentioned it before in terms of the epidemic across the 
Nation right now. Cocaine, methamphetamine; they dominate the 
methamphetamine market and sex trafficking and human 
trafficking, and that is what we face.
    And as the borders remain unsecure, which clearly they are, 
there is no doubt about that, and so does, you know, public 
safety vulnerabilities and national security vulnerabilities. 
And our mandate has been very clear. We have been operational. 
When I say operational, it does not mean anything to anybody, 
you know, probably here, but it does when you have got troopers 
and agents and Texas Rangers that have been deployed around the 
clock. They move down every week. They do 7 days straight 
operations with no breaks and they work 12 to 14 hours a day on 
the river, in the air, on the ground with our Border Patrol 
partners, because it is too important to the state security and 
every day we see victims.
    So as a result of that, you know, our operations have been 
married up with, like I said before, with Border Patrol. We 
will be continuing to doing this and we have received great 
support obviously from our local partners and from Border 
Patrol.
    And I guess there is one thing that I would like to stress, 
if I had not said Border Patrol enough, is that they need to be 
resourced, bottom line is. And I will say this, and you will 
find on my testimony, when you cut back on aviation assets. So 
the Border Patrol, that means National Guard, when they have 
UH-72s that are taken offline and you cut it by 50 percent, 
that is a problem. That directly affects officer safety and by 
the way, officers get shot at from Mexico. You never hear about 
that. No one comes to the Border Patrol's defense when that 
happens. I think my time is up, so I will shut up.
    [The prepared statement of Mr. McCraw follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                __________
                                
    Mr. Labrador. Thank you. Ms. Vaughan?

         STATEMENT OF JESSICA M. VAUGHAN, DIRECTOR OF 
         POLICY STUDIES, CENTER FOR IMMIGRATION STUDIES

    Ms. Vaughan. Thank you for the opportunity to testify this 
morning. The Obama administration's handling of the border 
surge has been a colossal disaster.
    Mr. Labrador. Just a second, I think, Mr. McCraw, your 
microphone is still on.
    Ms. Vaughan. In the face of this surge of illegal 
migration, the Administration has simply suspended enforcement 
of the law in favor of a charade of deportation proceedings 
that are routinely manipulated, ignored, and defied by the new 
arrivals and their advocates. The Administration and its 
allies, including the network of social and legal services 
contractors that receive hundreds of millions of dollars of 
public funding to process and advocate for more and more new 
arrivals, have tried to characterize this migration as a 
refugee crisis.
    But according to what the migrants have told the Border 
Patrol journalists, and my own colleagues doing field research, 
most of the local migrants are not refugees displaced by war, 
nor fleeing persecution. Instead, they are driven north by the 
widely publicized Obama administration policies that they have 
heard will allow them to stay in the U.S. for an indefinite 
period of time. They understand that they will be able to join 
family members or friends and that they will be able to work, 
and that even if they skip out on immigration hearings, nothing 
will happen to them. And from Mr. Judd's testimony, it appears 
that the Administration is no longer going through even the 
pretense of enforcement for those who arrive illegally at the 
border these days.
    This policy may make some people feel good, and certainly 
many contractors are earning a good living off this phenomenon, 
but the influx is imposing and enormous fiscal and public 
safety strain on some communities. Even worse, the 
Administration's see no evil approach has resulted in 
shockingly negligent Federal policies on the placement of 
unaccompanied minors.
    As we have discussed, it was revealed last week by a Senate 
investigation that the Department of HHS and its multimillion-
dollar network of contractors delivered an unknown number of 
kids right into the hands of traffickers, abusers, and other 
criminals. This occurred because HHS does not verify the 
identity or relationship claims made by sponsors who take 
custody of these kids or vet most of the adults who sponsor 
juveniles or other adults in the household. Even if they did a 
background check, criminal convictions would not disqualify a 
sponsor.
    HHS and its contractors actually have no idea how many 
minors have been placed with felons or other criminals, or even 
where many of these kids are. HHS and its contractors sometimes 
do not even lay eyes on the people they are placing the kids 
with or the place they will be living.
    Home studies were conducted in only 4 percent of the cases 
last year, or in the last 3 years.
    While the social welfare contractors are making out very 
well, the communities where they placed these new arrivals are 
not doing nearly so well. The outlays for schooling are 
enormous, on the order of $500 to $700 million a year 
nationally, which is paid by the local taxpayers. Local school 
systems cannot pull this money out of thin air, or depend on 
state assistance. They have to cut other things to pay for the 
new teachers, counselors, aides, and others to help support 
these kids.
    The city of Lynn, Massachusetts near me had to come up with 
an additional $8 million last year to cover school expenses for 
the unaccompanied juveniles. And in another town near where I 
live, it was half a million dollars in 1 year for about 20 new 
illegal arrivals. I realize the sum is a drop in the bucket for 
some of the multimillion-dollar contractors, but it is a lot of 
money for local taxpayers, and health services are also an 
expense. All of these are essentially an unfunded mandate of 
the President's policies that fall onto local and state 
governments who have no say in the process or the policy.
    And finally, I want to touch on one problem that has 
reappeared and worsened apparently as a result of these open 
door policies. Violent transnational gangs such as MS-13, which 
are based in Central America, have taken full advantage of the 
Obama administration's careless catch and release policies in 
order to swell their ranks here and also to recruit and smuggle 
in new members. This has contributed to a spike of new violence 
here as they try to expand their territory and as volatile new 
recruits try to prove their mettle by committing brutal acts.
    One of the places where this is happening is Frederick 
County, Maryland, just north of Montgomery County. Gang 
violence and fighting is now rampant in two of the county high 
schools: MS-13 has one floor; 18th Street has another. Just in 
the last several weeks, six juveniles who came as unaccompanied 
juveniles have been arrested and jailed for violent crimes, 
including attempted murder, assault, armed robbery, weapons 
charges, and unprovoked vicious attack on a deputy and more. 
All are documented MS-13 members. Gang investigators believe 
that they were recruited from El Salvador by two older illegal 
alien MS-13 shot callers who have been residing in the area for 
a longer time. One of these older gang members was approved for 
the President's Deferred Action for Childhood Arrivals. And one 
was employed as a custodian in a middle school.
    There are similar stories out of Boston. At least three 
murders attributed to unaccompanied minors just in September 
near where I live. Virginia has problems, Long Island, and even 
here in Washington, D.C. The answer is not just to get used to 
this surge in illegal immigration as a new normal, but to 
reverse the controversial policies and interpretations of the 
law that end up rewarding the illegal crossers and the 
traffickers and smugglers.
    [The prepared statement of Ms. Vaughan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORM
    
                                   __________
    
    Mr. Labrador. Thank you very much. Ms. Young?

             STATEMENT OF WENDY YOUNG, PRESIDENT, 
                 KIDS IN NEED OF DEFENSE (KIND)

    Ms. Young. On behalf of KIND, thank you, Mr. Chairman, and 
Members of the Subcommittee for the opportunity to appear 
before you to share our views on the surge of Central Americans 
to the U.S.
    KIND was founded to ensure that unaccompanied immigrant and 
refugee children are provided protection through pro bono legal 
representation, assistance to children returning to their 
countries of origin, and guidance to children applying for 
resettlement to the U.S. We have assisted more than 8,500 
children and trained 11,000 volunteer attorneys in our 7 years 
of operation. This work gives us a comprehensive understanding 
of the urgent protection needs of children on the move 
throughout the region.
    KIND is deeply concerned about the increasing emphasis on a 
law enforcement approach toward addressing the surge on 
unaccompanied refugee children and families from Central 
America that jeopardizes the protection of vulnerable 
individuals from the rampant violence the characterizes their 
home countries.
    While the recently announced U.S. resettlement program is a 
step in the right direction, it is a limited response that must 
be accompanied by full and fair access to the U.S. asylum 
system for those Central American families and children who 
reach our borders seeking safety. It must be underscored that 
it is not illegal to seek asylum in the U.S.
    El Salvador, Honduras, and Guatemala rank among the top six 
countries with the highest murder rates in the world. Sadly, 
children have been specifically targeted by the gangs and 
criminal rings that terrorize large parts of the Northern 
Triangle. The gangs attempt to forcibly recruit children, 
especially those in their early teens, but sometimes as young 
as kindergarten age. Girls are forced to become girlfriends of 
gang members, which in fact are nonconsensual relationships 
that result in rape by gang members. Children effectively have 
no one to turn to protect them due to the weak governance and 
corruption that characterizes the region.
    According to the UN Refugee Agency, at least 58 percent of 
children arriving at the U.S border have been forcibly 
displaced and are potentially in need of international 
protection. Moreover, the U.S. is not the only country 
receiving asylum seekers. UNHCR has documented an over 1,000 
percent increase in asylum applications from the Northern 
Triangle filed in Belize, Costa Rica, Mexico, Nicaragua, and 
Panama.
    In the absence of serious efforts to control this violence 
and provide meaningful opportunities for children to remain 
home safely and sustainably actions to deter unaccompanied 
children and families from coming to the U.S. will not work. 
Raids on families in addition to being ineffective are 
egregiously harmful to communities, particularly children.
    The threat of deportation will not stop people from coming 
when their lives and those of their families are at stake. 
While the numbers of children coming alone dropped in January, 
it is not at all clear that the raids prompted this decline. A 
child referred to KIND explained to us that he faced the 
difficult choice to flee or die. We have heard this sentiment 
repeatedly among the thousands of children with whom we work. 
Approximately half of these children do not have attorneys to 
help them make their case for U.S. protection. It is 
fundamentally unfair for any child to face removal proceedings 
without legal representation. Our staff has witnessed children 
as young as 3 years old appear in court without an attorney. 
This contradicts U.S. principle of due process and the values 
upon which this great Nation has been built.
    Some proposals before Congress, including the Child 
Protection Act, would in fact undermine the protection of 
unaccompanied children by subjecting them to cursory border 
screenings, prolonging their detention with CBP, and fast 
tracking the adjudication of their asylum claims. In a similar 
fashion, the Asylum Reform and Border Protection Act, would 
roll back critical protections for children under the 
Trafficking Victims Protection Reauthorization Act, expand the 
inappropriate use of immigration detention for children, limit 
access to due process and protections available to children 
under both asylum and the special immigrant juvenile status 
program, and fail to provide for the safe and sustainable 
repatriation of children.
    A robust asylum process that ensures due process and 
fundamental fairness is the most critical component in 
addressing a refugee crisis. Resettlement programs can be used 
strategically to support this response, but must not be viewed 
as a substitute for U.S. asylum obligations.
    In closing, Congress has a critical role in the response to 
the increased number of unaccompanied children seeking 
protection in the U.S. Strong oversight of and provision of 
resources to the agencies charged with the care of 
unaccompanied children is essential to ensure that these 
children are housed in safe facilities and conditions while 
they are in Federal custody. Children's immigration proceedings 
must be fully and fairly adjudicated. And children must be 
represented by pro bono counsel when they cannot afford counsel 
themselves. Congress should ensure that children are safely and 
quickly released to their families during the pendency of their 
immigration proceedings, utilizing procedures that ensure that 
such releases are in the best interests of the child and 
protect their safety and well being.
    Ultimately, the solution to the Central American refugee 
crisis lies in addressing the root causes of the flow. We must 
remain steadfast in our commitment to protecting vulnerable 
refugees. And remember that unaccompanied children are children 
first and foremost. KIND looks forward to working with Congress 
to improve the responses of our immigration asylum and refugee 
systems to the protection of unaccompanied children. Thank you 
again for the opportunity to appear before you.
    [The prepared statement of Ms. Young follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________
    Mr. Labrador. Thank you very much. We will now proceed on 
the 5-minute rule with questions. I will begin by recognizing 
myself for 5 minutes. This Committee is well aware that the 
2014 surge along the southwest border caught the Department of 
Homeland Security by surprise. It was almost completely 
unprepared. The lagging response and the resulting executive 
actions have proved disastrous in the year since. Current 
immigration law and enforcement have taken a clear back seat to 
policy and political gain. I have heard the same troupe here 
today. It is not illegal to seek asylum in the United States. 
We all know that. It is not illegal to seek asylum, but the 
reason you seek asylum is because you are here illegally in the 
United States. Asylum is a defense to being in the United 
States illegally.
    So that is totally meaningless, and I have heard that three 
times already today. Current immigration law enforcement have 
taken a clear backseat. It has become all too apparent that the 
Administration's own actions have largely contributed to this 
surge, and I am truly offended that this crisis on our border 
could be labeled as the new normal, or to be actually accepted 
as something that is normal.
    As we now face the start of another possible surge, I look 
forward to working with the Committee to continue this 
discussion beyond today's hearings and to create a viable 
solution to our crisis. Mr. Judd, what is the percentage of 
people who appear in court after an NTA?
    Mr. Judd. There has been several hearings on this topic, 
and it has been as much as 80 percent according to Senator 
Johnson, and as little as 40 percent, according to other 
statistics. The actual number is not completely known, but it 
is somewhere in between that.
    Mr. Labrador. Between 40 and 80 percent, is that what you 
are saying?
    Mr. Judd. I am sorry?
    Mr. Labrador. Between 40 and 80 percent?
    Mr. Judd. Yes, sir.
    Mr. Labrador. Based on your communication with Border 
Patrol agents along the southwest border, do you believe that 
we are at the beginning of a surge similar or worse than what 
we witnessed in 2014?
    Mr. Judd. We are actually seeing a lot more at this point 
than what we did in 2014.
    Mr. Labrador. Do you believe that the Border Patrol 
currently has the resources including manpower to adequately 
respond to the growing surge?
    Mr. Judd. No, we do not.
    Mr. Labrador. Your written testimony gives very clear 
examples of the flagrant disregard for our immigration laws. 
You refer to it as mere suggestions that carry little or no 
consequences. How would Border Patrol be better equipped if 
agents were not required to comply with priority enforcement 
program directives or policies mandating release?
    Mr. Judd. Well, at a minimum we would set up deportation 
proceedings on these individuals that we arrest. But 
unfortunately, right now, as long as they claim to have been 
here before January of 2014, we just let them go. We do not 
even set them up for----
    Mr. Labrador. And they do not even have to prove it as you 
said in your testimony. They just have to claim it.
    Mr. Judd. They just have to tell us that they have been 
here.
    Mr. Labrador. And an attorney could suggest to them that 
all they have to do is claim it because they are not, right?
    Mr. Judd. A lot of agents will actually ask them where they 
heard this from and they will tell the agents, ``Well, I was 
just told to tell you.''
    Mr. Labrador. Okay, and you say a lot of agents say that 
they were told to tell them. So when they come to you, do they 
tell you that they are leaving those countries because of the 
violence for the most part?
    Mr. Judd. There is two separate individuals that we have to 
look at. The juveniles when we first arrested them, starting in 
2014, they were told that all they have to do is ask for 
asylum. And right now, the Border Patrol has actually told us 
that we can no longer ask them that question, why are they 
coming anymore. Cannot even ask them that question? In some 
places we still do, but we are being told that you cannot even 
ask why they are coming here.
    Mr. Labrador. What do you think are the consequences for 
agents who are unwilling to comply with these limiting 
policies?
    Mr. Judd. They will be terminated.
    Mr. Labrador. So for wanting to enforce the law that is in 
the books, they are going to be terminated from their jobs?
    Mr. Judd. Absolutely. If they do not comply with the 
policies that are given.
    Mr. Labrador. Have you had any experience of any agents 
being terminated?
    Mr. Judd. No, our agents comply with the policies that we 
are given.
    Mr. Labrador. What can this Committee and this Congress do 
to assist the Border Patrol in its mission and in order to 
respond to the growing surge?
    Mr. Judd. Well, the first thing is we have to understand 
that the laws are the laws. Policies should not trump the laws. 
We should not be able to bypass Congress and set policies to 
trump the laws as long as we are enforcing the laws. Again, if 
these juveniles or family units would come through the ports of 
entry, that is legal. That is perfectly legal. If they would 
come through the ports of entry and ask for asylum, but to 
cross the border, that is illegal, and therefore we must 
support a consequence for that.
    Mr. Labrador. Thank you. Mr. McCraw, what would happen, you 
have vast experience with law enforcement so I am going to ask 
a question not about immigration. What was your area of 
expertise when you were in the FBI?
    Mr. McCraw. It was organized crime.
    Mr. Labrador. Organized crime.
    Mr. McCraw. Mexican drug trafficking organizations, 
Columbians and South American.
    Mr. Labrador. So if I would have sent a message to the 
organized crime community in your area that ``Hey, it is 
illegal to do X but we are just not really going to enforce 
it,'' what would have happened to organized crime in that area?
    Mr. McCraw. Everybody is going to exploit the seams, as 
Agent Judd appropriately noted that they were very flexible, 
adaptable and networked and they are going to exploit all 
opportunities, including the recruitment of our children.
    Mr. Labrador. Thank you. My time has expired, and I now 
recognize Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Before my questions, 
I would like to ask unanimous consent to place in the record 
statements from 13 primarily religious groups, along with a 
letter regarding temporary protected status from a number of 
groups.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee. Also, see For the Record 
Submission--Rep. Lofgren at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104402.
    Mr. Labrador. Without objection, they will be entered into 
the record.
    Ms. Lofgren. Thank you. I thank all the witnesses for being 
here today. And obviously, when you take a look at a complex 
situation, there is never just one thing going on. Obviously 
there are smugglers taking advantage of the situation. But I am 
mindful that we have--I got these statistics from the Border 
Patrol just yesterday. In terms of unaccompanied minor children 
apprehensions, from Belize, there was one child; from Costa 
Rica, there were two children; from Nicaragua, there were 52 
children; from Panama none; from El Salvador, 5,000 some odd; 
Guatemala, 6,000; Honduras, 2,800. Something is going on in 
those three countries, and that is not going on elsewhere in 
the region. And so, I think it is important. None of us wants 
to see thousands of children showing up at the border, they 
have been exploited on the way, on the journey. It is not a 
good situation.
    But the question is how to deal with this? What is causing 
this situation? And I know, KIND, and first, what a great name 
for an organization, KIND. Nobody thinks little children should 
have to fend for themselves without a representation. Your 
organization has represented thousands of kids. Can you give us 
some examples of the kinds of stories that you are hearing when 
you really get into it with these kids and what is going on, 
why did they come, what has happened to them? So we can get a 
flavor for what is really driving this situation?
    Mr. Labrador. Your mic is not on.
    Ms. Young. Thank you. First, I would like to say it should 
be an immediate red flag when you see a child who is under age 
18 migrating across this world alone leaving their homes, 
leaving their communities crossing international borders. That 
is not normal for a child. So something is going wrong at home 
that is causing them, driving them out, and in fact, in this 
situation, it is the violence in three countries: Guatemala, El 
Salvador, Honduras. About 97 percent of our case load at KIND 
currently is from those three countries. Conditions in 
countries like Panama are not that way. These are countries 
that are much more stable, so children are not fleeing, simply 
put.
    To share one story, Claudia, a 14-year-old girl who 
eventually won asylum when we matched her with a private sector 
lawyer, she was abducted from her home by gangs. She was held 
in captivity. She was gang raped by those gangs for 4 days. Her 
family during this period sought the assistance of the police 
and the community who told the family we cannot help you. 
Claudia eventually escaped. She went home. Her family relocated 
to another part of the country. The gangs found her there and 
began to threaten her again. Again, the family turned to the 
local police and asked for assistance and the police said, ``We 
cannot help you.''
    Claudia's family did the only thing they could. They sent 
her out of the country in search of protection. These are not 
young people who can line up and apply for a visa at a U.S. 
embassy. They are running for their lives.
    To share another story, documented by a board member of 
KIND, an 8-year-old child's body, her corpse, was found on the 
streets of Honduras, her throat slit and her panties stuffed in 
the wound. These families are doing the only thing they can. 
These children are doing the only thing they can. They are 
running for their lives, because they will be murdered if they 
remain home.
    Ms. Lofgren. Let me ask you, in terms of the violence that 
is going on in these Central American, in these three 
countries. The United Nations is now going to engage with the 
U.S. and other countries in the Western Hemisphere to provide 
some kind of refugee processing in those countries, and 
hopefully, safe haven in a third country. Not necessarily the 
U.S. I mean, it could be Costa Rica or Chile. We do not know. 
Have you been in touch with that process, and do you know where 
that process is at this point?
    Ms. Young. We have been engaged in the first stage of the 
refugee resettlement program, which is the so called CAM 
program where children can present themselves while still in 
their home country, and apply for resettlement. We are very 
gratified by the decision of the Administration to work with 
the UNHCR to expand this processing into third countries, so 
that people are able to be safe in a country such as Mexico or 
Belize, somewhere in the neighborhood, while they go through 
the resettlement process.
    I should note, however, that resettlement is a limited 
response. They are targeting roughly 4,000 individuals for 
resettlement to the United States and resettlement takes a very 
long time. So while it will be a critical option for some, it 
is not the full solution to the crisis.
    Ms. Lofgren. I will just close. I agree. I mean, we have 
probably more refugees in the world today since World War II. I 
mean, you take a look at what is going on in Europe, I mean, in 
Central America, it is huge. But the answer is not just 
resettlement. It is peace, so that people do not have to flee, 
and I was talking to Chairman Gowdy before he left about what 
had been going on in Columbia. And we are no longer seeing 
refugees from Columbia, because with the help of the United 
States and other Nations in the Western Hemisphere, and the 
Colombian people themselves, they got control of their 
situation. And it is not a perfect situation. There are 
problems, but we do not have a complete failed state in 
Columbia anymore and it is clear that we have to work with 
others so that these three countries can be stabilized and have 
the rule for law so that people do not have to flee for their 
lives. And with that, Mr. Chairman, I yield back.
    Mr. Labrador. Thank you, and I now recognize the gentleman 
from Texas, Mr. Smith.
    Mr. Smith. Okay. Thank you, Mr. Chairman. Let me address my 
first question to Mr. Judd, Director McCraw, and Ms. Vaughan, 
and it is this: Do you feel that the majority of individuals 
trying to enter the United States illegally from those three 
primary Central American countries are motivated by the 
President's policies that they feel will allow them to stay in 
America? Mr. Judd?
    Mr. Judd. We no longer ask the individuals what the 
motivation is, but in early 2014, yes. When we asked what the 
motivation was, yes, it was based upon policy.
    Mr. Smith. Right. And the Department of Homeland Security 
report said around 70 percent, I believe. Mr. McCraw?
    Mr. McCraw. I do not have enough information to comment on 
that, Congressman.
    Mr. Smith. Okay, Ms. Vaughan?
    Ms. Vaughan. Yes, I would agree with that. Based on what we 
have seen from intelligence reports from the Border Patrol and 
ICE, and based on what the migrants themselves tell 
journalists, and also a team of researchers we sent down to the 
area to interview people, the vast majority are coming because 
they understood that they would be allowed to stay, and that 
the smugglers are telling them and advertising in the news 
media in their home countries that if they get to the border, 
that they will be released and allowed to stay for an 
indefinite period of time.
    I do not doubt that there are a few, you know, very 
compelling cases of people who would benefit from our 
protection, but the majority of them are simply here to join 
family, friends, or because they heard they could get away with 
it.
    Mr. Smith. Right. Mr. Judd, was that a directive from the 
Administration that said ``Do not ask that question any 
longer?''
    Mr. Judd. No, sir it was not. That came from our 
management.
    Mr. Smith. Okay, from the management as well. Maybe they 
did not like the result they were getting, I do not know. The 
other point I think to make is we sometimes hear about the 
violence in those three Central American countries. Crime rates 
are actually going down in two of the three of those countries, 
and the crime rates themselves are still less than the crime 
rates in several American cities.
    Unfortunately, I think there is a lot of biased media 
coverage and you seldom see the media acknowledge that the 
primary motivation are the President's policies and the 
expectation of amnesty when they arrive.
    Ms. Vaughn, and Mr. Judd too, and Director McCraw, I would 
like to get some figures just to have a better idea of the 
extent of the problem. And let me ask you all if you have 
information in regard to last year, 2015, as to how many 
individuals entered the United States illegally or came in on 
visas and over stayed or are in an illegal capacity now? Do we 
have a figure, a rough estimated figure for those number of 
people who contributed to the illegal population? Ms. Vaughan?
    Ms. Vaughan. The number, according to the Border Patrol 
statistics, there are about a quarter of a million Central 
American juvenile----
    Mr. Smith. Okay, I am not talking about Central America. I 
am talking about overall, any country.
    Ms. Vaughan. I do not have a number off the top of my head 
of the total number of people who have come illegally. We do 
not know, because they do not know who evaded the Border 
Patrol. As far as over stayers, it is about half a million 
people in 2015 who did not depart when their visa----
    Mr. Smith. Half are just the visa over stayers?
    Ms. Vaughan. Not all of them are still here. They think 
just over 400,000. That is just the visitor visas. That does 
not count the guest worker visas or the exchange.
    Mr. Smith. Okay, I had no idea the problem was that great. 
To me that is a huge change from what I have heard before. A 
change that hundreds of thousands of more people in the country 
illegally than we might have imagined.
    Mr. Judd, do you have any estimate as to the number of 
people who come into the United States each year that are not--
we just heard about the visa over stayers, people coming across 
our southern border. What is the estimate as to how many coming 
in illegally?
    Mr. Judd. I am not privy to the agency statistics, but I 
can give you from the Border Patrol agents what they tell you. 
Just to give you a real quick story. Chairman Chaffetz was down 
on the border, and he was allowed to patrol the border with 
Border Patrol agents. He had every single resource available to 
him. You name it, he had it. He had helicopter, he had ATVs, he 
had horse patrol, he had every single resource available to 
him. There were seven drug smugglers that crossed the border 
while he was there that he got to chase. Of those seven drug 
smugglers that he got to chase with every single one of those 
resources, they caught zero.
    When he was talking to the patrol agent in charge of the 
Border Patrol station, he asked, ``What would you estimate the 
percentage of those that cross the border illegally, what would 
you estimate the percentage is that you actually arrest.'' And 
the patrol agent in charge, the highest-Ranking Member of that 
station of about 350 agents, he told him that if they hit a 
sensor, we arrest probably 50 percent. If they do not hit a 
sensor, it is well below 50 percent of what we arrest.
    Mr. Smith. Right. What is your estimate as to the number, 
just estimate, as the number of individuals, or maybe I should 
say the fraction of individuals who are apprehended versus who 
get successfully get into the United States illegally?
    Mr. Judd. A safe estimate from the Border Patrol agents 
would be that we arrest about 40 percent of what actually 
crosses. So, if you got the official numbers from the agency of 
what we arrest, that is about 40 percent.
    Mr. Smith. So if we arrested 400,000, then 600,000 would be 
coming in illegally?
    Mr. Judd. Correct.
    Mr. Smith. Something like that. When I have talked to 
Border Patrol agents in south Texas, the estimates have been 
anywhere from we only apprehend one out of two to one out of 
five, and that is about I think what you are saying. Okay.
    Mr. McCraw. The challenge you have is you do not know what 
you do not know, Congressman. Until you have sufficient 
detection capability in place, you cannot really tell how many 
you did detect and apprehend or did not, and I can tell you 
from a Texas standpoint the border region, you know as of in 
fiscal year 2014, these are unofficial Border Patrol 
statistics. They had 341,132 apprehensions. And it can also 
tell you the trending because we talked about Central America 
and the three countries. It is also trending, just as in 
children, it also trends across in terms of all OTMs, it 
parallels about 75 percent of the apprehensions in the Rio 
Grande Valley, which was the center of gravity for drug and 
human smuggling right now.
    Mr. Smith. As you pointed out I am going to be there at 
tomorrow. My time has expired. Let me just say that I do not 
think we have ever had a President of the United States less 
willing to enforce immigration laws and implement policies that 
I think encourage illegal immigration. I thank you all for your 
testimony.
    Mr. Labrador. The gentleman's time has expired. I recognize 
Mr. Conyers.
    Mr. Conyers. Thank you. Attorney Young, you have got a 
great organization, KIND. I think many people would be 
surprised to learn that children are expected to appear before 
an immigration judge and a trained government attorney without 
legal representation. What do you think can be done to increase 
the number of lawyers for unaccompanied children?
    Ms. Young. Thank you, Congressman Conyers, and that is a 
very good question. Bottom line, our experience has been that 
the private sector actually is very willing to step forward to 
represent these children on a pro bono basis. There has really 
been an extraordinary response from our over 300 major law firm 
corporate legal department, law school, and bar association 
partners, and at the height of the crisis in 2014, we had 
companies like Disney call us and say, ``We want to help you. 
What can we do?'' And 70 of their attorneys appeared at a 
training 2 weeks later.
    So that is one part of the response that I think it would 
be very wise to capitalize on, and with groups like KIND behind 
those attorneys, what we see is that they provide very high 
quality representation to the children, and in fact, the 
children that we work with, over 90 percent of them are granted 
some form of relief under our immigration laws, asylum or 
otherwise.
    In addition, however, there are some cases that are not 
appropriate for placement with private sector attorneys who 
tend not to be immigration lawyers. These are corporate 
lawyers, tax lawyers, whatever else.
    And those cases can be very well handed by the NGO 
community that has expertise in children's immigration law. I 
would also just like to point out that our experience is that 
the court system runs much more efficiently when children are 
represented by counsel. Immigration judges find it very 
difficult to proceed on a case when they have a 3-year-old 
standing in front of them with no lawyer. How do you question 
that child?
    I, in fact, saw a 5 year old in court one day clutching a 
doll. The immigration judge asked her a series of questions 
about why she was in the United States, where she was living. 
That child just looked at him, her head barely above the 
microphone, could not answer a single question until he finally 
asked her, ``What is the name of your doll?'' And she said in 
Spanish, baby, baby doll. And that was the only question that 
was answered during that hearing.
    Mr. Conyers. Why is legal representation so critical in 
solving the crisis at our southwest border?
    Ms. Young. Again, our experience is that most of these 
children, when provided the opportunity to present their case 
before an immigration judge, when they are provided a full and 
fair hearing, are in fact eligible for protection, that legal 
counsel is critical to assist the child through that process. 
Some of my co-panelists mentioned Border Patrol questioning 
children. I would suggest to you that a Border Patrol agent who 
is in a chaotic Border Patrol station wearing a uniform armed 
is not going to elicit information from a child about why they 
are here. These kids are terrified. They are tired. They are 
traumatized. They need time to recover. They need an adult who 
is advocating for them to elicit the kind of information that 
can form the basis for a claim for immigration relief.
    Mr. Conyers. Thank you. You know, many have suggested that 
the journey for Central American children is dangerous and we 
should do everything we can to prevent these children from 
leaving their homes in order to protect them from harm. How do 
you respond to that kind of view?
    Ms. Young. I would just quote one family who I think said 
it best, ``I would rather see my child die on the way to the 
United States than on my own doorstep.'' I am not going to 
defend smugglers. This is a large illicit business. The 
smugglers are very abusive to these children, but when these 
kids are facing the kind of dangers they are in their home 
countries, they would rather take that risk and hope that they 
will find safety in the United States than stay home.
    Mr. Conyers. Now, many suggested that violence, 
particularly gang violence, is prevalent in many of our United 
States cities. And the situation in the Northern Triangle is no 
different. Would you agree with that finding?
    Ms. Young. Two points: first, the rates of violence in 
Central America are much higher than cities across the United 
States, such as Detroit. Secondly, I would also say the big 
difference is in the United States there are functioning police 
forces. There is a functioning judicial system that can address 
crime in this country. What you see in Central America is these 
countries are too weak, they are too corrupt. Law enforcement 
does not follow through to pick these criminals up. The 
judicial system fails to prosecute individuals, so these crimes 
are committed with complete impunity in these three countries.
    Mr. Conyers. Let me squeeze in this last observation.
    Mr. Labrador. Without objection.
    Mr. Conyers. Thank you, Mr. Chairman. Do you think it is 
appropriate to use the term ``gang'' to describe the kinds of 
organized crime and violence in these three countries?
    Ms. Young. What we see increasingly are organized 
transnational criminal cartels, and the same cartels that are 
involved in creating the violence in the home countries are the 
same cartels that are then preying on children and families as 
they migrate and conducting the human smuggling and human 
trafficking operations. So, this is highly organized across the 
region.
    Mr. Conyers. Thank you very much. I thank the Chair.
    Mr. Labrador. Thank you. The gentleman's time has expired 
and I recognize the gentlemen from Illinois.
    Mr. Gutierrez. Thank you very much. Pleasure to be here 
this morning with all my distinguished colleagues. Once again, 
it is always good to see a labor union that the Republicans 
actually invite to come and give testimony. It is the only one. 
Just to show you there is always an exception to the rule, even 
when it comes to the labor unions and I wonder why they love 
you so much.
    Mr. Labrador. I think we love the labor unions and 
Obamacare as well, but that is all right.
    Mr. Gutierrez. But Mr. Chairman, you cannot interrupt when 
I am speaking, it is my time. That is unfair. You get your time 
later on, right? I want my 10 seconds back. But having said 
that, it is always interesting. And I was really fascinated by 
Mr. Judd, because he said that Mr. Chaffetz went down there, 
and they had ATVs and they had helicopters, and that the seven 
people that crossed the border, the drug smugglers that crossed 
the border, none of them were apprehended. It is always amazing 
to me how seven people can cross the border, but we know that 
they were drug smugglers. We did not catch them. We did not 
interview them, but they were drug smugglers. Because that kind 
of fits, right? Let's always talk about anybody that crosses 
the border as a drug smuggler and not anything else coming to 
the United States, because crime and immigration always seem to 
rhyme very well with the majority's perspective when it comes 
to immigration in this country.
    So, I would like to interview those seven too to see if it 
is really true. It is amazing just how you can see just what it 
is that has brought them here to this country. So I would like 
to speak a little bit about the situation that is going on, 
because it just seems to me that--I said yesterday, I gave a 
speech on the House floor. And I said watch tomorrow Judiciary 
Committee is going to have a hearing. They are going to do a 
couple of things. They are going to equate immigration to 
crime, and they are going to say that it is all Obama's 
problem.
    Well, I guess I did it. I pat myself on the back because 
that is exactly what has happened here. It does not resolve the 
problem, because even if we built the best, greatest wall 
between Mexico and the United States, they would still ask the 
testimony by those offered by the majority here today they 
would still be hundreds of thousands of people coming to the 
United States and staying illegally in the United States once 
their visas expire. That is the testimony that we have been 
given here. But all we want to do is focus on building a wall 
or a fence. Of course paid for by Mexico, yet by the very 
testimony of the people here, the tens of thousands, hundreds 
of thousands of people did not come from Mexico, yet that is 
where we are going to build the wall. Which speaks to the 
fantasy about what we are doing.
    What we should do is we should create a system that allows 
people to come not through Coyotajes, not through drug 
smugglers, not through human traffic, but with a plane ticket, 
with a visa, a legal way to come to the United States of 
America, so that we can have an organized fashion in which we 
have our immigration policy set forth. That is what we should 
be doing. Instead, we continue to have a system that allows the 
drug smuggler to exploit the children. I would like to thank 
the gentlelady from California by addressing the issue.
    They are not coming from Belize. They are not coming from 
Costa Rica. Nicaragua is the poorest country in Central 
America. They are not coming from Nicaragua. They are coming, 
fleeing the drug cartels in three Central American countries, 
and I get offended that Members of this Judiciary Committee say 
that they are coming here illegally. It is not illegal to come 
to the border of the United States of America and to ask for 
political asylum in the United States, to ask for refugee 
status in the United States. That is not illegal. That is a law 
and a statute of the United States of America.
    So, we always, but we always have to equate them, right? 
Illegal, criminal, even children applying. Now, as you can 
tell, I am not going to ask any questions, because I have a few 
things that I want to respond. Here is one of the things, and 
it is in the testimony by Ms. Vaughan, but that nobody talks 
about. Nobody talks about. In addition there are a large in 
flow of illegal Cuban immigrants into Texas. A large flow? A 
large flow? Eight thousand? There are more people seeking 
refugee status from Cuba coming through the border, yes, the 
Texas border between Mexico and the United States, than any 
other single country that has been testified to here.
    As a matter of fact, in the last year, 43,000 people, the 
immense majority of them coming through ports of entry to the 
United States of America, but nobody ever talks about them, and 
they get automatic--what do they get: automatic. Because you do 
not even ask them, right? As soon as they say, ``I am from 
Cuba,'' refugee status, and here is your green card and 
American citizenship 3 years later.
    And by the way, why do you not have the food stamps and get 
on SSI and every other government ability to government 
service. But nobody has ever talked about that, and I think it 
is a shame that we are talking about the border and we do not 
talk about people seeking--children--as Ms. Young has--children 
fleeing drug cartels, fleeing murders, rapists, drug 
traffickers. Fleeing them for their very lives, and yet we have 
43,000 people coming from Cuba; they are automatically given 
asylum in the United States with not one question asked. All 
they have to do is say they come, and they come through those 
ports of entry. And I think we all know why. We all know why. 
Because it is politics, when it comes to a certain group of 
people, and politics when it comes to another group of people, 
and I think that is shameful. Thank you very much, Mr. 
Chairman.
    Mr. Labrador. The gentleman's time has expired. This 
concludes today's hearing.
    Ms. Lofgren. Mr. Chairman? May I ask unanimous consent to 
put into the record the data from the Border Patrol that I 
referred to earlier?
    Mr. Labrador. Without objection.
    [The material referred to follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Lofgren. Thank you.
    Mr. Labrador. That will be entered into the record. 
Anything else? This concludes today's hearing. Thanks to all of 
our witnesses. Just in closing, I agree that if somebody is 
coming here to seek asylum, they should be allowed to seek 
asylum. I think every one of the witnesses agrees with that. I 
just do not think that you should be coming here with a border 
search and use the excuse of asylum.
    Mr. McCraw. Chairman, I want to say one thing. Often, the 
only one that rescues those children from those cartels and 
transnational gangs are the Border Patrol agents. A trooper or 
a deputy sheriff. If they stay in the custody of them when they 
go between the ports of entry, they are enslaved and I can give 
you numerous cases that will just rip your heart out in terms 
of what happens to children when they stay in the hands of 
Mexican cartels, and are not rescued by Border Patrol or deputy 
or a trooper.
    Mr. Labrador. Thank you. Without objection, all Members 
will have 5 legislative days to submit additional written 
questions for the witnesses or additional materials for the 
record, and the hearing is now adjourned.
    [Whereupon, at 10:30 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            

 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
